     Department of Homeland Security

     ��������������������������



   FEMA Should Recover $10.9 Million of Improper 

   Contracting Costs from Grant Funds Awarded to 

   Columbus Regional Hospital, Columbus, Indiana 





OIG-14-12-D                           December 2013

                               OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security
                                       Washington, DC 20528 I www.oig.dhs.gov


                                                   DEC      4 2013



MEMORANDUM FOR:                      Andrew Velasquez Ill




FROM:                                John . '
                                                me    v
                                     Regional Administrator, Region V
                                     Fedg                    Ma a __::_Agency

                                     Assista I       or General
                                     Office of Emergency Management Oversight

SUBJECT:                             FEMA Should Recover $10.9 Million of Improper
                                     Contracting Costs from Grant Funds Awarded to
                                     Columbus Regional Hospital, Columbus, Indiana
                                     FEMA Disaster Number 1766-DR-IN
                                     Audit Report Number OIG-14-12-D

We audited Public Assistance grant funds awarded to Columbus Regional Hospital
(Hospital) in Columbus, Indiana (Public Assistance Identification Number 005-UOFZF-00).
Our audit objective was to determine whether the Hospital accounted for and expended
Federal Emergency Management Agency (FEMA) grant funds according to Federal
regulations and FEMA guidelines.

The Indiana Department of Homeland Security (IDHS), a FEMA grantee, awarded the
Hospital $94.4 million for damages resulting from severe storms and flooding that
occurred May 30, through June 27, 2008. The award provided 75 percent funding for
                                 1
122 large and 130 small projects. As of January 27, 2013, the cut-off date of our audit,
the Hospital had claimed $71.1 million and IDHS had disbursed $63.7 million.




1
  Federal regulations in effect at the time of the disaster set the large project threshold at $60,900. On
June 23, 2008, FEMA reduced the cost share from 90 percent to 75 percent on Category B (Emergency
Protective Measures) projects when flood waters receded to a specified level.
                            OFFICE OF INSPECTOR GENERAL 

                                Department of Homeland Security 



Table 1 shows the gross and net award amounts before and after reductions for
insurance.

                        Table 1. Gross and Net Award Amounts

                             Gross Award          Insurance       Net Award
                               Amount            Reductions        Amount
             All Projects    $110,286,824        ($15,913,494)    $94,373,330
             Audit Scope      $74,650,556        ($ 1,372,755)    $73,277,801

Because of the size of the award and the number of projects, we have divided the audit
into two phases. During this first phase, we reviewed the methodology the Hospital
used to award $74.7 million for 11 disaster­related contracts. We are planning a second
phase to review the support and eligibility of specific costs the Hospital has claimed.

We conducted this performance audit between March 2013 and September 2013,
pursuant to the InspectorfGeneralfActfoff1978, as amended, and according to generally
accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based upon our audit objective. We believe that
the evidence obtained provides a reasonable basis for our findings and conclusions
based upon our audit objective. We conducted this audit by applying the statutes,
regulations, and FEMA policies and guidelines in effect at the time of the disaster.

We interviewed FEMA, IDHS, and Hospital officials; reviewed contracting documents;
and performed other procedures considered necessary to accomplish our objective. We
did not assess the adequacy of the Hospital’s internal controls applicable to grant
activities because it was not necessary to accomplish our audit objective. We did,
however, gain an understanding of the Hospital’s method of accounting for disaster­
related costs and its procurement policies and procedures.


                                      BACKGROUND

Columbus Regional Hospital is a branch of Bartholomew County and is a county non­
profit regional healthcare facility providing healthcare services to residents of multiple
counties in southeastern Indiana. On June 7, 2008, flood waters inundated the entire
basement of the Hospital, which contained much of the Hospital's medical and lab
equipment. In addition, standing contaminated water and mud heavily damaged the
first floor. Hospital officials closed the facility as a result of the flood and partially


www.oig.dhs.gov                              2                                  OIG-14-12-D
                         OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security

reopened it in October 2008. We determined that exigent circumstances existed until
April 2009, when the hospital returned to full capacity.


                                  RESULTS OF AUDIT

Of the 11 contracts we reviewed, totaling $74.7 million, the Hospital did not follow
Federal procurement standards in awarding $64.8 million for 9 contracts. Two of the
nine contracts were non­competitive contracts for non­exigent work, another two were
prohibited cost­plus­percentage­of­cost contracts for exigent work, and all nine
contracts involved violations of other Federal procurement standards. As a result, open
and free competition did not occur, and FEMA has no assurance that costs were
reasonable. Therefore, we question $10.9 million, consisting of $8.7 million for the two
non­competitive contracts for non­exigent work and $2.2 million for prohibited markups
on the two cost­plus contracts for exigent work. We did not question all of the costs for
the nine contracts because contractors performed the majority of the work under
exigent circumstances to restore the Hospital to its full operating capability.

These findings occurred in part because IDHS, as the grantee, did not adequately
monitor the Hospital’s subgrant activities to ensure compliance with Federal
procurement standards. Therefore, FEMA should require IDHS to instruct the Hospital to
improve its procurement procedures for future disasters.

Finding A: Improper Contracting

The Hospital did not follow Federal procurement standards in awarding $64.8 million for
9 disaster­related contracts, or 87 percent of the $74.7 million the Hospital awarded for
11 disaster­related contracts. As table 2 below shows, the Hospital awarded two
contracts for non­exigent work without adequate competition, awarded another two
contracts for exigent work that included prohibited cost­plus­percentage­of­cost
payment terms, and did not comply with one or more other Federal procurement
standards in awarding all nine contracts. As a result, we question $10.9 million,
consisting of $8.7 million for the two non­competitive contracts and $2.2 million for
prohibited markups on the two cost­plus contracts.

Federal regulations at 2 CFR 215, in part, require that subgrantees—

   1.	 Perform procurement transactions in a manner to provide, to the maximum
       extent practical, open and free competition. (2 CFR 215.43)
   2.	 Do not use the prohibited cost­plus­a­percentage­of­cost method of 

       contracting. (2 CFR 215.44(c))

   3.	 Include required provisions in all of their contracts. (2 CFR 215.48 and 

       Appendix A to Part 215—Contract Provisions) 


www.oig.dhs.gov                             3	                               OIG-14-12-D
                              OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security

     4.	 Make positive efforts to use small businesses, minority­owned firms, and
         women’s business enterprises, whenever possible. (2 CFR 215.44(b))
     5.	 Prepare and document some form of cost or price analysis in connection with
         every procurement action. (2 CFR 215.45)
     6.	 Provide a clear and accurate description of the project requirements for the
         material, product, or service to be procured. (2 CFR 215.44 (a)(3)(i))

                                   Table 2. Contracting Violations


                                                           Non-compliance with Procurement Standards 1–
                                                                          6 Listed Above
 Contract     Questioned              Contract
 Amount        Amount              Scope of Work
                                                            1       2       3       4       5       6

$ 5,114,305   $ 5,114,305    Flood Wall                     X               X       X
  3,584,720     3,584,720    Project Administration         X               X       X               X
 38,916,492     1,675,802    Restoration Work                       X       X       X
                              st
  5,808,528        557,154   1 Floor Clean­up                       X       X       X       X
  3,898,889             0    Basement Clean­up                              X       X       X
  3,822,148             0    Architect/Engineer                             X       X
  1,372,755             0    Modular Kitchen                                X       X       X       X
  1,522,314             0    Communications System                          X
   751,647     _____    0    Nurse Call System                              X       X       X
$64,791,798   $10,931,981

 Non-Competitive Contracts and Unreasonable Costs

 The Hospital awarded two contracts totaling $8,699,025 for non­exigent work without
 open and free competition. In addition, at least one of the contracts included
 unreasonable prices. Generally, open and free competition means that all responsible
 sources are allowed to compete for contracts. However, the Hospital did not publicly
 advertise the two contracts, but rather invited a limited number of preselected
 contractors to bid.

 For one contract (a protective flood wall) totaling $5,114,305, the Hospital invited five
 preselected contractors to bid on the work. For a second contract (administrative
 services) totaling $3,584,720, the Hospital invited only four preselected contractors to
 submit bids. In both instances, the hospital limited competition by preselecting
 contractors to bid rather than advertising or otherwise publicizing its procurement to
 other potential qualified bidders.

 www.oig.dhs.gov                                      4	                                 OIG-14-12-D
                          OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


Further, for the administrative contract, the proposals the Hospital initially received
related to processing insurance claims rather than administrative work. The Hospital
solicited new proposals because FEMA questioned the scope of work including
insurance. The Hospital inserted “FEMA” into the scope of work in its solicitation for the
new proposals and the final contract. The Hospital could not provide us pre­award
documentation required to determine the proposed scope of the services. Federal
regulations at 2 CFR 215.44(a)(3)(i) require a clear and accurate description of the
project requirements for the material, product, or service to be procured.

In addition, the contractor (a Certified Public Accounting firm) charged unreasonably
high hourly rates for the administrative services (ranging from $300 for staff and
$460 for senior managers and up to $550 for a partner) and incurred travel costs that it
might have avoided if the Hospital had publicly advertised for bids. For example, if the
Hospital had publically solicited the work, it may have obtained lower rates from a local
firm that would eliminate or reduce travel costs. Hospital officials said they based the
selection process on the contractor’s familiarity with hospital accreditation and operating
requirements rather than price. We disagree with this selection process because without
open and free competition there is no assurance that another contractor would not have
been able to perform the same non­technical services at lower rates.

Hospital officials also said they hired the project administrator during the exigent
period immediately after the flood to assist the Hospital in responding quickly to
FEMA's requests for information and documentation to formulate its disaster projects.
We do not agree with the Hospital's position because project administration is not
exigent work to save lives or property. Therefore, the Hospital should have used open
and free competition for the project administration work.

FEMA, in a September 8, 2009, memo provided guidance on implementing Disaster
Assistance Policy DAP 9525.9, Sectionf324fManagementfCostsfandfDirectfAdministrativef
Costs (DAC). This guidance provides an upper­limit reasonable rate of $265 per hour for
a senior consultant and $224 per hour for a consultant. FEMA also stated in an
April 2013 appeal that $155 per hour for administrative services is a reasonable hourly
rate unless the work requires highly technical expertise. For example, a contractor that
IDHS used to manage the Hospital’s grant and perform similar administrative services
charged only $147 per hour.

In addition, the services the contractor provided for performing administrative services
such as documenting the value of damages, allocating costs, and reconciling billings
were not highly technical and therefore did not warrant the $300 to $550 hourly rates.
Federal regulations at 2 CFR Part 225, Appendix A – General Principles for Determining
Allowable Costs, § C.2. define a cost as reasonable if, in its nature and amount, it does
not exceed that which a prudent person would incur under similar circumstances.

www.oig.dhs.gov                              5                                  OIG-14-12-D
                         OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security

Because most of the rates the Hospital’s contractor charged for the type services
provided exceeded the rates FEMA determined as reasonable, the rates the Hospital
claimed appear to be unreasonably high.

Open and free competition also increases the probability of achieving reasonable pricing
from the most qualified contractors and allows greater opportunity for small businesses,
minority firms, and women’s enterprises to compete for federally­funded work. Open
and free competition also helps discourage and prevent favoritism, collusion, fraud,
waste, and abuse. Because the Hospital awarded noncompetitive contracts for non­
exigent work, one with unreasonable prices, we question $8,699,025 of ineligible and
unreasonable contracting costs.

Prohibited Contracts

The Hospital awarded two contracts totaling $44,725,020 using prohibited cost­plus­
percentage­of­cost contracts. Federal regulations at 2 CFR 215.44(c) prohibit the use of
cost­plus­percentage­of­cost contracts because they provide a disincentive for
contractors to control costs—the more contractors charge, the more profit they make.

The Hospital awarded a cost­plus­a­percentage­of­cost contract for the phase 1
rebuilding of the hospital. The contractor added a 4.5 percent mark­up to all
subcontractor/vendor costs. The Hospital also used the same type cost­plus contract for
emergency clean­up after the flooding, which included a 15 percent mark­up on all
costs.

A Hospital representative said that the Hospital has a unique status as a county hospital
and that many of the typical sources of mandatory procurement procedures under State
and Federal law do not apply to them. The Hospital cited specific Indiana statutes they
believe applied to the disaster procurement work. The representative also said that the
Hospital did not ignore all procurement guidelines and standards, but rather, as FEMA
agreed to and according to existing law, carefully followed all of its own existing
procurement standards and guidelines in all of its decisions regarding contracting,
bidding, and purchasing. However, the Hospital could not provide any documentation
substantiating that it was exempt from following Federal regulations or that FEMA
agreed that the Hospital should follow only its own procurement procedures.

On the contrary, FEMA said in a letter dated September 26, 2008, that 44 CFR 13 did not
apply to the Hospital, but rather the Office of Management and Budget Circular A­110 (2
CFR 215) applied to hospitals and other non­profit entities. Further, in an October 7,
2008, letter to FEMA, Hospital officials agreed to follow the procurement standards in
2 CFR 215.40 through 48 for two contracts, even though the Hospital did not agree that
these regulations applied to them. According to Federal regulations at 2 CFR 215.0 the
provisions of Part 215 apply to grants and agreements with institutions of higher

www.oig.dhs.gov                             6                                 OIG-14-12-D
                          OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security

education, hospitals, and other non­profit organizations and that recipients (IDHS in this
case) shall apply the provisions to subrecipients (the Hospital in this case). The Hospital
is not exempt from Federal regulations and should have complied with the procurement
standards in 2 CFR Part 215. It is not the Hospital’s prerogative to pick and choose which
parts of Federal regulations apply to it.

Although both contracts are entirely ineligible, we did not question all of the costs for
the two contracts because contractors performed the majority of the work under
exigent circumstances to restore the Hospital to its full operating capability. However,
because the Hospital should have known better than to use a cost­plus­percentage­of­
costs contract and because such contracts are so egregious, we believe that FEMA
should at least disallow the mark­ups on costs. Therefore, we question as ineligible the
$2,232,956 in mark­ups on costs ($1,675,802 plus $557,154).

Other Contracting Violations

The Hospital did not comply with other Federal procurement standards in awarding nine
contracts we reviewed totaling $64,791,798. The Hospital did not: (1) include required
provisions in any of the nine contracts; (2) make efforts to ensure the use of small
businesses, minority­owned firms, and women’s business enterprises to the fullest
extent practicable on eight of the contracts; (3) perform cost or price analyses on four of
the contracts; and (4) document the project requirements in their solicitations for two
of the contracts. We did not question additional costs for these other contracting
violations because seven of the nine contracts were for exigent work to fully restore the
Hospital, and we have already questioned costs for the two non­emergency contracts
above.

RequiredfProvisionsf

The Hospital did not include all required provisions in nine of its contracts totaling
$64,791,798. Federal regulations at 2 CFR 215.48 and Appendix A to 2 CFR Part 215—
Contract Provisions set forth the required provisions for contracts and subcontracts,
such as Equal Employment Opportunity compliance, compliance with labor laws, and
prohibition of “kickbacks.” These provisions document the rights and responsibilities of
the parties and minimize the risk of misinterpretations and disputes.

Small,fMinority,fandfWomen-OwnedfBusinessesf

The Hospital did not make efforts on eight contracts totaling $63,269,484 to ensure the
use of small businesses, minority­owned firms, and women’s business enterprises
whenever possible. Although the Hospital awarded four of the eight contracts to small
businesses, the Hospital made no intentional effort in awarding the contracts to small
businesses. Federal regulations at 2 CFR 215.44(b) require subgrantees to take specific

www.oig.dhs.gov                              7                                 OIG-14-12-D
                          OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security

steps to ensure the use of small businesses, minority­owned firms, and women’s
business enterprises whenever possible. These steps include using the services and
assistance of the Small Business Administration and the Minority Business Development
Agency of the Department of Commerce to solicit and use these firms.

CostforfPricefAnalysisf

The Hospital awarded $11,831,819 for four contracts without performing a cost or price
analysis. The contracts included two contracts totaling $9,707,417 million to clean up
the hospital’s basement and first floor, a contract for $1,372,755 million to lease
modular kitchens, and a $751,647 contract to repair a damaged nurse call system.
Federal regulations at 2 CFR 215.45 require some form of cost or price analysis and
documentation in the procurement files in connection with every procurement action.
The absence of a cost or price analysis increases the likelihood of unreasonable contract
costs and misinterpretations or errors in pricing relative to scopes of work.

Regarding the lease on the modular kitchens, Hospital officials said that it was their only
alternative. Hospital officials said they contacted three companies, and only one was
responsive to their needs. Regardless, even when only one source is available all
procurements require a cost or price analysis. Regarding the damaged nurse call system,
Hospital officials said that they used the contractor who installed the prior nurse call
system because he was familiar with the system. Although the use of a contractor
familiar with a system may be a selection factor that a subgrantee considers in awarding
a contract, it does not preclude the subgrantee from performing the required cost or
price analysis.

Pre-AwardfDocumentationf

The Hospital did not have documentation defining the scope of work for two contracts
totaling $4,957,475. On one $3,584,720 contract, the Hospital discussed requests for
proposals with four potential contractors for project administrative services. The initial
proposals that contractors submitted indicated that the work related to insurance
settlements rather than project administration. On the other contract, the Hospital
leased modular kitchens for $1,372,755 and did not provide documentation defining the
scope of work. Federal Regulations at 2 CFR 215.44(a)(3)(i) and (ii) require that
solicitations provide for a clear and accurate description of the technical requirements
for the material, product, or service to be procured; requirements that the
bidder/offeror must fulfill; and all other factors the subgrantee will use in evaluating
bids or proposals.

Hospital officials said that exigent circumstances immediately following the flood would
have made it difficult to make some of the contract requirements a condition in
acquiring bids. Hospital officials also believed that because FEMA wrote the project

www.oig.dhs.gov                             8                                  OIG-14-12-D
                          OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security

worksheets after discussing contracting issues with them that FEMA approved the
projects.

Exigent circumstances do not negate the necessity to follow Federal regulations even
when doing so is difficult. Federal regulations require a cost or price analysis and
contract provisions for all contracts regardless of exigent circumstances. FEMA initially
develops project worksheets to estimate disaster damages and obligate project funding;
the project worksheet is not FEMA’s approval of procurement procedures.

Finding B: Grant Management Issues

Some of the problems we identified in this report occurred because IDHS did not take a
more proactive role in the Hospital’s contracting activities. Federal regulations at 44 CFR
13.40(a) require grantees to manage the day­to­day operations of subgrant­supported
activities and to monitor subgrant­supported activities to ensure compliance with
applicable Federal requirements. IDHS was aware of the contract violations because its
employees reviewed the Hospital’s contracts; however, IDHS did not assist the hospital
in bringing the contracts into compliance with Federal regulations. Hospital officials
erroneously believed that Federal regulations did not apply to them and that FEMA’s
approval of the hospital’s projects meant that FEMA approved the contracts. Because it
is IDHS’ responsibility to manage and monitor the Hospital’s projects, IDHS should have
taken actions to ensure that the Hospital complied with Federal regulations.


                                  RECOMMENDATIONS

We recommend that the Regional Administrator, FEMA Region V:

Recommendation #1: Disallow $10,931,981 ($8,242,875 Federal share) as ineligible
contract costs, unless FEMA grants an exemption for all or part of the costs as provided
for in 2 CFR 215.4 and section 705(c) of the RobertfT.fStaffordfDisasterfRelieffandf
EmergencyfAssistancefAct, as amended (finding A).

Recommendation #2: Direct IDHS to instruct the Hospital to comply with Federal
procurement regulations in future disasters by—

   •	 Not using prohibited cost­plus­percentage­of­cost contracts;
   •	 Performing all procurements using open and free competition to the maximum
      extent practicable;
   •	 Including required provisions in its contracts;
   •	 Making positive efforts to use small businesses, minority­owned firms, and
      women’s business enterprises whenever possible;


www.oig.dhs.gov                              9	                                OIG-14-12-D
                         OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security

   •   Performing a cost or price analysis on all procurements; and
   •   Documenting the project requirements in its solicitations (finding B).


              DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOWUP

We discussed the results of our audit with Hospital officials during our audit and
included their comments in this report, as appropriate. We also provided a draft report
in advance to FEMA on September 5, 2013, and IDHS and Hospital officials on
September 10, 2013, and discussed it at exit conferences held with FEMA officials on
September 12, 2013, and with IDHS and Hospital officials on September 18, 2013. FEMA
officials generally agreed with our findings but withheld comment until they receive the
final report. IDHS and Hospital officials generally disagreed with our findings and
recommendations.

Within 90 days of the date of this memorandum, please provide our office with a
written response that includes your (1) agreement or disagreement, (2) corrective
action plan, and (3) target completion date for each recommendation. Also, please
include the contact information for responsible parties and any other supporting
documentation necessary to inform us about the current status of the recommendation.
Until we receive your response, we will consider the recommendations to be open and
unresolved.

Consistent with our responsibility under the InspectorfGeneralfAct,fwe will provide
copies of our report to appropriate congressional committees with oversight and
appropriation responsibility over the Department of Homeland Security. We will post
the report on our website for public dissemination.

Major contributors to this report are Christopher Dodd, Acting Director; Paige Hamrick,
Audit Manager; William Lough, Auditor­in­Charge; and Jacob Farias, Auditor.

Please call me with any questions at (202) 254­4100, or your staff may contact
Christopher Dodd, Acting Director, Central Regional Office, at (214) 436­5200.




www.oig.dhs.gov                            10                                   OIG-14-12-D
                          OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security

                                                                              Exhibit
                               Schedule of Questioned Costs

                                                        Questioned
                   Project    Category   Net Award         Costs
                  Number      of Work     Amount        (Finding A)
                     2066        E       $62,278,273      $7,718,277
                     2014        B         3,123,960         244,902
                     2013        B         3,092,243         113,479
                     1530        B         2,846,394         474,079
                     2073        E         1,082,763          51,238
                     2184        B            26,691          26,691
                     2348        E         1,059,102          22,124
                     1904        B           946,997          26,872
                     2210        B             4,906           4,906
                     2206        B             1,931           1,931
                  All Other
                  Projects                19,910,070          2,247,482
                  Total                  $94,373,330     $10,931,981




www.oig.dhs.gov                           11                              OIG-14-12-D
                          OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security

                                                                          Appendix
                                 Report Distribution List

Department of Homeland Security
Secretary
Chief Financial Officer
Under Secretary for Management
Audit Liaison, DHS
Chief Privacy Officer

Federal Emergency Management Agency
Administrator
Chief of Staff
Chief Financial Officer
Chief Counsel
Director, Risk Management and Compliance
Audit Liaison, FEMA Region V
Audit Liaison, FEMA (Job Code G­13­010)
Chief Procurement Officer

Office of Management and Budget
Chief, Homeland Security Branch
DHS OIG Budget Examiner

Recovery Accountability and Transparency Board
Director, Investigations

Grantee
Public Assistance Coordinator, Indiana Department of Homeland Security

State
Legislative Post Auditor, State of Indiana

Subgrantee
Attorney, Columbus Regional Hospital, Columbus, Indiana

Congress
Senate Committee on Appropriations, Subcommittee on Homeland Security
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations, Subcommittee on Homeland Security
House Committee on Homeland Security
House Committee on Oversight and Government Reform
House Committee on Transportation and Infrastructure

www.oig.dhs.gov                              12                          OIG-14-12-D
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to:

       Department of Homeland Security 

       Office of Inspector General, Mail Stop 0305 

       Attention: Office of Investigations Hotline 

       245 Murray Drive, SW 

       Washington, DC 20528-0305 


You may also call 1(800) 323-8603 or fax the complaint directly to us at
(202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
